                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-11030012                                                                Page 1 of 1



         We received an allegation that a set of companies 1 submitted duplicate proposals to multiple
         government agencies. We reviewed the companies' NSF proposals and awards, and compared
         them to other proposals and awards from other government agencies. We also identified an
         individuarZ who simultaneously served as PI on awards made to multiple companies, in apparent
         violation of the primary employment requirement of the SBIR program. We requested and
         reviewed the individual's time records.

         Our investigation did not find evidence that the allegations raised were substantiated or
         actionable with respect to the NSF awards.

         This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
